No. 19IN THE

$Upreme QCourt of tbe Wniteb $tates
CHRISTOPHER EDWARD MCMILLEN
AN INCAPACITATED PERSON,

Petitioner,

V.

NEW CANEY INDEPENDENT SCHOOL DISTRICT,

Respondent.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I certify that three copies of the
Petition for Writ of Certiorari in McMillen v. New Caney Independent School District,
No. 19-__, were served via overnight mail on all parties required:
Charles Cory Rush

KARCZEWSKI BRADSHAW SPALDING

3700 Buffalo Speedway
Houston, TX 77098
(713) 993-7060
crush@kbslawgroup.com

Counsel for Respondent
I declare under penalty of perjury that the foregoing is true and correct.

Date: January 30, 2020

